£4=1217

o
FILED
FEB 1 6 2021

Sn fte

Supreme Court of tfje ®mtrb
DANIEL KRISTOF LAK, Esquire,
Petitioner,
v.
STATE OF CALIFORNIA, et. al.,
Respondents.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the 9th Circuit

DANIEL KRISTOF LAK
Petitioner, Pro Se
P.O. BOX 321
SAN JUAN CAPISTRANO, CA 92693
(949)299-8708
email: federalcourtcases32167@yahoo.com

QUESTIONS PRESENTED
1. Whether a state can be shielded from suit in federal court via 11th Amendment
immunity in actions brought pursuant to Title IV-D of the Social Security Act
when (i) Congress has clearly abrogated state immunity, (ii) when Section 5 of the
14th Amendment limits the state’s immunity, (iii) when a private right of action
arises under Title IV-D of the Social Security Act, (iv) the state has consented to
suit, and (v) the state has voluntarily invoked the jurisdiction of the federal courts
for suits brought under Title IV-D of the Social Security Act?
2. Whether a Plaintiff has complied with Rule 8 of the Federal Rules of Civil
Procedure when Plaintiffs original complaint, although complex and voluminous,
is otherwise presented in a simple and plausible manner?

11

PARTIES TO THE PROCEEDING AND
CORPORATE DISCLOSURE STATEMENT
Petitioner is Daniel Kristof Lak, an individual.
Respondents are State of California, State of California Department of Child
Support Services, State Disbursement Unit, County of Orange, Department of
Child Support Services County of Orange, Steven Eldred, in his official capacity as
Director of the Department of Child Support Services County of Orange, Steven
Eldred, as an individual.

*.

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

l

PARTIES TO THE PROCEEDING AND
CORPORATE DISCLOSURE STATEMENT

11

TABLE OF CONTENTS

in

TABLE OF APPENDICES/OPINIONS BELOW

,iv

TABLE OF CITED AUTHORITIES

,v

TABLE OF STATUTES
JURISDICTION

,vi
,V11

PETITION FOR WRIT OF CERTIORARI.

1

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE PETITION

7
7

I.

11™ AMENDMENT IMMUNITY IS NOT ABSOLUTE

II.

11™ AMENDMENT IMMUNITY IS NOT AVAILABLE TO STATE
DEFENDANTS HERE AS CONGRESS HAS CLEARLY ABROGATED
STATE IMMUNITY FOR PLAINTIFF/APPELLANT’S CIVIL RIGHTS
8
CLAIMS

III.

11th AMENDMENT IMMUNITY IS NOT AVAILABLE TO STATE
DEFENDANTS HERE AS THE ENFORCEMENT PROVIONS OF $5 OF
THE 14th AMENDMENT LIMIT THE STATE DEFENDANTS’ 11th
11
AMENDMENT IMMUNITY IN 42 U.S.C S1983 SUITS

IV.

11th AMENDMENT IMMUNITY IS NOT AVAILABLE TO STATE
DEFENDANTS HERE AS STATE DEFENDANTS VIOLATED
\

PLAINTIFF/APPELLANT’S FEDERAL RIGHTS CREATED BY TITLE
IV-D OF THE SOCIAL SECURITY ACT AND ARE. THEREFORE.
SUBJECT TO THE ENFORCEMENT PROVISIONS OF $5 OF THE
14TH AMENDMENT,
13
V.

PLAINTIFF HAS A PRIVATE RIGHT OF ACTION UNDER TITLE IV-D
OF THE SOCIAL SECURITY ACT AS PLAINTIFF HAS “SPECIFIC”
AND “WELL DEFINED” CLAIMS WHICH CREATE INDIVIDUAL
FEDERAL RIGHTS AS REQUIRED BY THE UNITED STATES
14
SUPREME COURT...........................................................................

VI.

STATE DEFENDANTS HAVE CONSENTED TO SUIT. THEREBY
WAIVING ELEVENTH AMENDMENT IMMUNITY BY
VOLUNTARILY PARTICIPATING IN AND, RECEIVING FEDERAL
INCENTIVE FUNDS UNDER. TITLE IV-D OF THE SOCIAL
18
SECURITY ACT

VII.

STATE DEFENDANTS HAVE WAIVED ELEVENTH AMENDMENT
IMMUNITY BY VOLUNTARILY INVOKING THE JURISDICTION OF
THE FEDERAL DISTRICT COURTS IN TITLE IV-D ACTIONS....... 21

VIII. PLAINTIFF/APPELLANT COMPLIED WITH RULE 8 OF THE
FEDERAL RULES OF CIVIL PROCEDURE

CONCLUSION

23

34

IV

TABLE OF APPENDICES/OPINIONS BELOW
Page
APPENDIX A — ORDER OF THE UNITED STATES COURT OF APPEALS FOR
THE 9th CIRCUIT DENYING PETITION FOR REHEARING, FILED
SEPTEMBER 18, 2020
la
APPENDIX B — MEMORANDUM OPINION OF THE UNITED STATES COURT
OF APPEALS FOR THE 9th CIRCUIT,
FILED JUNE 5, 2020
3a
APPENDIX C — JUDGMENT OF UNITED STATES DISTRICT COURT OF THE
CENTRAL DISTRICT OF CALIFORNIA,
FILED SEPTEMBER 10, 2018
5a
APPENDIX D — ORDER ACCEPTING FINDINGS AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
FILED SEPTEMBER 10, 2018
7a
APPENDIX E — REPORT AND RECOMMENDATION OF UNITED STATES
9a
MAGISTRATE JUDGE, FILED JULY 17, 2018

•.

V

TABLE OF CITED AUTHORITIES
CASES

Page(s)

In re Pegasus Gold Corp.,
394 F.3d 1189, 1191 (9th Cir. 2005)

7

Pennhurst State School & Hosp. v. Halderman.,
465 U.S. 89, 99-100(1984)........................................

7

Clark v. Barnard,
108 U.S. 436, 108 U. S. 447 (1883)

8

Fitzpatrick v. Bitzer,
427 U. S. 445, 427 U. S. 456 (1976)

8,10,11

Will v. Michigan Dep’t of State Police,
491 U.S. 58, 64-66 (1989)......................

8

Hafer v. Melo.
502 U.S. 21, 30 (1991).0

8

Seminole Tribe of Florida u. Florida,
517 U.S. 44.............................................

9

Lane v. Pena,
518 U.S. 187, 198-200 (1996)

9

Franklin v.Gwinnett County Pub. Sch.
503 U.S. 60, 72 (1992).............................

9

Crawford v. Davis,

109 F.3d 1281, 1283 (8th Cir. 1997)

9

Florida Prepaid v. College Savings,
119 S. Ct. 2205-06..............................

10

TABLE OF CITED AUTHORITIES (Continued)

Page(s)
Hans v. Louisiana,
134 U. S. 1 (1890).

11

Ford Motor Co. v. Department of Treasury,
323 U. S. 459 (1945)........................................

11

College Savings Bank v.
Florida Prepaid Postsecondary Ed. Expense Bd.,
527 U.S. 666 (1999)...................................................

12,21

City of Boerne v. Flores,
521 U. S. 507, 516-529 (1997)

12

Gonzaga University v. Doe,
536 U.S. 273, 283 (2002)....

13

Blessing v. Freestone,
520 U.S. 329, 340 (1997)

13,14,16

Smith v. Robinson,
468 U.S. 992, 1005 (1984)

14

Livadas v. Bradshaw
512 U.S. 107, 133 (1994)

15

Wright v. Roanoke Redevelopment and Housing Authority,
479 U. S. 418, 430........................................................................

16

Maine v. Thiboutot,
448 U.S. 1 (1980)...,

17

Parden v. Terminal R. Co.,
377 U.S. 184 (1964)............

18

Clark v. Barnard,
108 U. S. 436........
Gunter v. Atlantic Coast Line R. Co.,
200 U. S. 273, 200 U. S. 284..............

.17, 21

18,21

TABLE OF CITED AUTHORITIES (Continued)
Page(s)
Petty v. Tennessee-Missouri Bridge Comm'n.,
359 U. S.275.........................................................

18

United States u. Butler,
297 U.S. 1 (1936)...........

19

South Dakota v. Dole,
483 U.S. 203 (1987),

19

American Well Works Co. v. Layne & Bowler Co.,
241 U. S. 257, 260 (1916)..........................................

22

VI

STATUTES
STATUTES
42 U.S.C. §2000d

Page(s)
...9,11

42 U.S.C. §2000d-7(a)(l)

10

42 U.S.C. §629a (a)(2)(b)

1,17

42 U.S.C. §666(a)(7)(B)

2,17

42 U.S.C. §666(a)(10)

2„17

California Family Code §17303

19,20

California Family Code §17208 (b)

20

California Family Code §17400 (c)

21

42 U.S.C. §660

22

vn
JURISDICTION
The district court judgment was entered on September 10, 2018. The United
States Court of Appeals for the 9th Circuit filed a memorandum opinion on June 5,
2020. The United States Court of Appeals for the 9th Circuit filed an order denying
petition for rehearing on September 18, 2020.
On March 19, 2020, this Court extended the deadline to file petitions for
writs of certiorari in all cases due on or after the date of that order to 150 days
from the date of the lower court judgment, order denying discretionary review, or
order denying a timely petition for rehearing. Therefore, this Court has
jurisdiction under 28 U.S.C. § 1254(1).
Jurisdiction in the District Court arises under 28 U.S.C. §1331 and 28
U.S.C. §1343. Federal question jurisdiction arises pursuant to 42 U.S.C. §1983; 42
U.S.C. §21 §2000d; 42 U.S. C. §629a (a)(2)(B); 42 U.S. C. §666 (a)(7)(B); 42 U.S. C.
§666 (a)(10); 18 U.S.C §§1961-1968; and 18 U.S.C. §1341.
SUPPLEMENTAL JURISDICTION
Supplemental jurisdiction in the District Court over ancillary state law
claims arises under 28 U.S. C. § 1367(a) which provides that “the district courts
shall have supplemental jurisdiction over all other claims that are so related to
claims in the action within such original jurisdiction that they form part of the
same case or controversy.”

Jurisdiction in the United States Court of Appeals arises under 28 U.S.C.
§1291 which provides “the courts of appeals... shall have jurisdiction of appeals
from all final decisions of the district courts of the United States.”
Jurisdiction in the United States Court of Appeals for the Ninth Circuit is
proper as this appeal is taken from a decision of the United States District Court
for the Central District of California, the Honorable Philip S. Gutierrez presiding.

PETITION FOR WRIT OF CERTIORARI
The State of California created the Department of Child Support Services
(the “Department”) with Assembly Bill 1058 for the primary purpose of maximizing
incentive payments from the federal government under Title IV-D of the Social
Security Act (the “Act”).
The Department’s (i) authority, (ii) enforcement powers, and (iii)
compensation structure are all created by the Act. As such, the Department
effectively acts as a collection agency of the federal government and receives
incentive payments based upon its performance (i.e., the more money the
Department collects from non-custodial parents, the more money it gets from the
federal government in the form of incentive payments).
Additionally, the Act creates specific affirmative duties for the Department.
These are: (i) to promote the safety and well-being of children and families, (ii) to
increase the strength and stability of families, (iii) to support and retain foster
families so they can provide quality family based settings for children in foster care,
(iv) to increase parents’ confidence and competence in their parenting abilities, (v)
to afford children a safe, stable, and supportive family environment, (vi) to
strengthen parental relationships and promote healthy marriages, and (vii) to
enhance child development. 42 U.S.C. §629a (a)(2)(B).

2
More specifically, the Act requires the Department to (i) review and adjust
child support orders upon the request of either parent, taking into the consideration
the best interests of the child involved, (ii) inform parents of their right to request
this review and, if appropriate, (iii) adjust existing child support orders accordingly.
Additionally, the Act requires the Department to conduct a review, with or without
a parent’s request, not less than every three years, to determine if a child support
adjustment is appropriate. 42 U.S.C. 666(a)(7)(B), 42 U.S.C. 666(a)(10). Lastly, the
Act prohibits the Department from erroneously reporting derogatory credit
information to credit reporting bureaus. 42 U.S.C. (7)(b)(i) and (ii).
Plaintiff/Appellant brought suit in federal district court against the
Department for, among other claims, violations of the aforementioned provisions of
the Act.
This appeal arises from the decision of the lower district court which granted
Appellees’ motion to dismiss under Federal Rule of Procedure §12(b)(6). No
hearings, evidentiary or otherwise, were conducted at the lower court level.
Because there was no court reporter, there is no court reporter’s transcript.
Therefore, the record for this appeal consists solely of the district court’s CM/ECF
docket (“Docket”).

3
The United States States Court of Appeals for the 9th Circuit affirmed the
district court’s judgment primarily on the grounds that (i) the Department was
protected from suit in federal court via 11th Amendment immunity and (ii)
Appellant failed to make a clear and concise statement of the claims against
defendants in violation of Rule 8 of the Federal Rules of Civil Procedure.
STATEMENT OF THE CASE
(Docket No. 1, Pages 25-53)
To facilitate the maximizing of federal incentive payments, the Department
created what are known as “Title IV-D courts.” These courts are presided over by
Title IV-D Commissioners and all open child support cases must only be heard in a
Title IV-D court before a Title IV-D Commissioner. Title IV-D courts and the
Commissioners that preside over them, were intended to be independent arbiters of
child support cases brought by either a custodial or non-custodial parent. However,
Title IV-D courts are directly funded by the Department itself. Furthermore, not
only are the Title IV-D Commissioners paid by the Department itself, they are even
required to submit their timesheets directly to the Department for approval prior to
getting paid. Therefore, the Department has established a system, originally
intended to be impartial, which is something far less than “arms length” and cannot
even remotely be perceived as being impartial. In addition, the Department has
delegated its collection powers to local child support agencies (“LCSA”). These
agencies are entities of local county governments and are supposed to act as
“neutral interveners” - mediating between custodial and non-custodial parents for

4
the benefit of the children in Title IV-D courts. However, these LCSA’s are likewise
charged with the collection of child support obligations and are financially incented
to collect as much as possible from non-custodial parents. Again, the Department
has created a system that is supposed to be impartial, however, cannot even
remotely be considered a “neutral intervener.”
Plaintiff/Appellant is a father of three children, was a member in good
standing of the California State Bar for over 12 years with a thriving estate
planning practice in Orange County, California.

Plaintiff/Appellant always

provided financially for his children, never missed a birthday, soccer game, piano
recital, parent teacher conference, or anything relating to his children. However,
following his divorce, the Department and the LCSA, in violating the provisions of
the Act, have reduced Plaintiff/Appellant from a hard working, always present,
loving father, to a hopeless, homeless, penniless, indigent who has (i) lost his
business, (ii) lost his home, (iii) lost his car, (iv) lost all of his personal property, (v)
has been forced to file Bankruptcy, (vi) has been forced to live “on the streets,” and
(vii) eventually has been diagnosed with, and continues to suffer from, Severe Post
Traumatic Stress Disorder (“PTSD”) whose symptoms include, but are not limited
to, severe depression and severe anxiety.
However, the aforementioned sufferings pale in comparison to the damage
effected upon the relationship between Plaintiff/Appellant and his children.

5
Being homeless and without financial resources, Plaintiff/Appellant has lost
custody of his children whereas before, custody was shared equally (i.e., 50/50 legal
and physical custody). Being homeless and without financial resources,
Plaintiff/Appellant has been unable to see his children on a regular basis nor
provide for them financially as previously. Consequently, the relationship between
Plaintiff/Appellant and his children has suffered severely, but hopefully,
Plaintiff/Appellant fervently prays, not irreparably. The Department and the LCSA
have intentionally and continuously: (i) enforced the wrong child and spousal
support orders to their financial benefit, (ii) wrongfully levied father’s personal
bank accounts, (iii) wrongfully suspended father’s California State Bar license and
falsely reported father to the California State Bar (“STATE BAR”) as being
delinquent on support obligations based on the wrong support orders and wrong
support amounts, (iv) wrongfully suspended father’s California driver’s license and
falsely reported father to the California Department of Motor Vehicles (“DMV”) as
being delinquent on support obligations based on the wrong support orders and
wrong support amounts, (v) falsely reported father as being delinquent to multiple
credit reporting agencies based on the wrong support orders and wrong support
amounts, (vi) intentionally and continuously ignores any order of the court that is
beneficial to father, (vii) retaliates against father by ordering the suspension of his
STATE BAR and California driver’s licenses every time father files a motion to
modify child and spousal support, (viii) retaliated against father by attempting to
have him incarcerated when father filed a motion to modify child and spousal

6
support, (ix) refused to provide father with an audit of his child and spousal support
accounts, as ordered by the court, for over 1 % years, and (x) only complied with the
court’s order to provide the audit after father brought a motion to compel and, when
the audit was finally produced, it showed the Department and LCSA had committed
accounting errors in excess of $50,000.00.
Additionally, the Department and LCSA (xi) continually instructs the
custodial parent to ignore all discovery orders, (xii) continually opposes, without
cause, all of Plaintiff/Appellant’s modification motions, and (xiii) continually
requests the Title IV-D Commissioners to have Plaintiff/Appellant’s modification
motions “taken off calendar” which has resulted in a situation where
Plaintiff/Appellant has never had the opportunity to have his modification motions
heard. Plaintiff/Appellant can’t even appeal the Commissioner’s decisions to “take
the matter off calendar” as they are not “final” decisions. As a result,
Plaintiff/Appellant’s motions are stuck in perpetual “limbo” and the cycle continues
to this day.
The Department and the LCSA have conducted the aforementioned actions,
without any due process of law whatsoever, in violation of both federal and state
laws.

7

REASONS FOR GRANTING THE PETITION FOR WRIT OF CERTIORARI
The lower district court ruled that the 11th Amendment barred all claims
against the State Defendants. (Docket No. 30, Page 8, beginning with Line 22).
Plaintiff/Appellant believes the lower court erred in so ruling as set forth below.
This judgment was affirmed by the 9th Circuit.
11th AMENDMENT IMMUNITY IS NOT ABSOLUTE.
State Defendants would have this Court believe that 11th Amendment
immunity is absolute. In support of it’s position, State Defendants cite various
Supreme Court precedent1 in hopes this Court will accept as “gospel truth” the
implied contention that 11th Amendment bars all suits against all states in federal
courts - always. Nothing could be further from the truth.
The United States Supreme Court has long since held that 11th Amendment
immunity is not absolute. In re Pegasus Gold Corp., 394 F.3d 1189, 1191 (9th Cir.
2005).
Specifically, a plaintiff may overcome an 11th Amendment bar if (i) the State
or State agency has waived its sovereign immunity, or if (ii) Congress has
abrogated the State or State agency’s 11th Amendment immunity. Pennhurst
State School & Hosp. v. Halderman., 465 U.S. 89, 99-100 (1984).
There are certain well-established exceptions to the reach of the 11th
Amendment and if a State waives its immunity and consents to suit in federal

Idaho v. Coeur d’Alene Tribe ofIdaho, 521 U.S. 261,438 (1997); Seminole Tribe ofFlorida v. Florida, 517 U.S.

8
court, the 11th Amendment does not bar the action. Clark v. Barnard, 108 U.S.
436, 108 U. S. 447 (1883).
Additionally, the 11th Amendment is "necessarily limited by the enforcement
provisions of § 5 of the Fourteenth Amendment," that is, by Congress' power "to
enforce, by appropriate legislation, the substantive provisions of the Fourteenth
Amendment." Fitzpatrick u. Bitzer, 427 U. S. 445, 427 U. S. 456 (1976).
Consequently, when acting pursuant to § 5 of the 14th Amendment, Congress can
abrogate 11th Amendment immunity without a State’s consent. Ibid.

The Supreme Court has also held that the 11th Amendment does not bar suits
against State officials sued in their individual capacities, nor does it bar suits for
prospective injunctive relief against the State or State officials sued in their official
capacities. Will v. Michigan Dep’t of State Police, 491 U.S. 58, 64-66 (1989); Hafer v.
Melo, 502 U.S. 21, 30 (1991).

Here, Plaintiff/Appellant seeks prospective/injunctive relief from State
Defendants in the form of an ongoing protective order. Consequently, the 11th
amendment does not bar Plaintiff/Appellant’s action against State Defendants and
the motion to dismiss was granted in error.
11th AMENDMENT IMMUNITY IS NOT AVAILABLE TO STATE
DEFENDANTS HERE AS CONGRESS HAS CLEARLY ABROGATED
STATE IMMUNITY FOR PLAINTIFF/APPELLANT’S CIVIL RIGHTS
CLAIMS.

9
To determine whether Congress has abrogated the State Defendants’
immunity, the Supreme Court has established a two-part test known as the
“Seminole Tribe test.” Seminole Tribe of Florida v. Florida, 517 U.S. 44.
The first part of the Seminole Tribe test requires that a federal statute
contain an "unequivocal expression" of Congress's intent to abrogate the states'
immunity. Ibid at 55.
Here, Plaintiff/Appellant brought suit in federal court against State
Defendants for, among other causes, civil rights violations pursuant to 42 U.S.C.§21
and §2000d. Additionally, 42 U.S.C. §2000d-7(a)(l) states the following:
A State shall not be immune under the Eleventh Amendment of the
Constitution of the United States from suit in Federal court for a violation of
... title VI of the Civil Rights Act of 1964 142 U.S.C. 2000d et seq.J, or the
provisions of any other Federal statute prohibiting discrimination
by recipients of Federal financial assistance.
The Supreme Court has characterized §2000d-7 as meeting its requirement
that Congress must unambiguously express, in the text of the statute, its intent to
remove the 11th Amendment bar to private suits against States in federal court.
Lane v. Pena, 518 U.S. 187, 198-200 (1996); Franklin v.Gwinnett County Pub. Sch.,
503 U.S. 60, 72 (1992); id. at 78 (Scalia, J., concurring); Crawford v. Davis, 109 F.3d
1281, 1283 (8th Cir. 1997).
(

The second part of the Seminole Tribe test requires that a statute be an

appropriate exercise of Congress' constitutional powers for its abrogation provision
to have effect. Seminole Tribe of Florida v. Florida, 517 U.S. at 55.

10
Historically, the Supreme Court has recognized only one constitutional power
under which Congress may abrogate the States' 11th Amendment immunity. This
constitutional power is the power granted Congress by §5 of the Fourteenth
Amendment. Florida Prepaid v. College Savings, 119 S. Ct. 2205-06.
In Fitzpatrick, the Supreme Court held that Congress' decision to abrogate
States' 11th Amendment immunity from sex discrimination suits brought under
Title VII, 42 U.S.C. 2000e et seq., was a proper exercise of its §5 power. Fitzpatrick
v. Bitzer, 427 U.S. at 456 (1976).
The Supreme Court explained that "the Eleventh Amendment, and the
principle of state sovereignty which it embodies, are necessarily limited by the
enforcement provisions of §5 of the Fourteenth Amendment." Ibid. The Court
concluded that "Congress may, in determining what is 'appropriate legislation' for
the purpose of enforcing the provisions of the Fourteenth Amendment, provide for
private suits against States or state officials." Ibid.
Here, Congress' decision to abrogate States' 11th Amendment immunity from
race discrimination suits brought under Title VI, 42 U.S.C. §2000d would likewise
be a proper exercise of its §5 power under the 14th Amendment.
Therefore, Congress, in enacting title VI of the Civil Rights Act of 1964 (42
U.S.C. §2000d and §2000d-7) has (i) enacted a federal statute that contains an
"unequivocal expression" of Congress' intent to abrogate the States' immunity, and
(ii) enacted a federal statute by an appropriate exercise of its constitutional powers
under §5 of the 14th Amendment.

11
Therefore, Congress has met the two-part Seminole Tribe test and in so
doing, has properly abrogated the State Defendants’ 11th Amendment immunity in
Plaintiff/Appellant’s suit under 42 U.S.C. §2000d.
Therefore, the State Defendants’ motion was granted in error.
11th AMENDMENT IMMUNITY IS NOT AVAILABLE TO STATE
DEFENDANTS HERE AS THE ENFORCEMENT PROVIONS OF §5 OF
THE 14th AMENDMENT LIMIT THE STATE DEFENDANTS’ 11th
AMENDMENT IMMUNITY IN 42 U.S.C $1983 SUITS.
The Supreme Court has held that a State’s IIth Amendment immunity may
not exist where Congress, in the exercise of its power to enforce the 14th
Amendment, has authorized suits against the State by an individual. Fitzpatrick v.
Bitzer, 427 U. S. 445 (1976).
Additionally, the Supreme Court has long since recognized the ability of
Congress to allow suits by individuals against States in the following language:
We think that the Eleventh Amendment, and the principle of state
sovereignty which it embodies, see Hans u. Louisiana, 134 U. S. 1 (1890), are
necessarily limited by the enforcement provisions of §5 of the Fourteenth
Amendment. In that section, Congress is expressly granted authority to
enforce "by appropriate legislation" the substantive provisions of the
Fourteenth Amendment, which themselves embody significant limitations on
state authority. We think that Congress may, in determining what is
"appropriate legislation" for the purpose of enforcing the provisions of the
Fourteenth Amendment, provide for private suits against States or state
officials which are constitutionally impermissible in other contexts.
Edelman v. Jordan, 415 U. S. 651 (1974); Ford Motor Co. v. Department of
Treasury, 323 U. S. 459 (1945).
Here, the 14th Amendment provides that no State shall deprive any person of
... property ... without due process of law. Additionally, §5 of the 14th Amendment

12
provides that Congress shall have power to enforce, by appropriate legislation, the
provisions of the 14th Amendment.
The Supreme Court has “made it clear” that the term "enforce" is to be taken
seriously and that the object of valid §5 legislation must be the carefully delimited
remediation or prevention of constitutional violations. City of Boerne v. Flores, 521
U. S. 507, 516-529 (1997).
Here, Plaintiff/Appellant, among other causes, brings a suit against the State
Defendants for violations (denial) of due process under 42 U.S.C. §1983.
Specifically, Plaintiff/Appellant alleges that State Defendants deprived him of the
property right of a California driver’s license and a California State Bar license
without due process as required by the 14th Amendment.
Because a driver’s license and state bar license, once issued, are
constitutionally protected property rights, the State Defendants’ deprivation
thereof, without due process, is violative of the 14th Amendment.
The due process guarantees of the 14th Amendment are carefully delimited
constitutional violations which §5 of the 14th Amendment seeks the remediation or
prevention thereof.
Therefore, Congress acted under appropriate authority to abrogate the State
Defendants’ sovereign immunity in 42 U.S.C. §1983 actions by legislating under §5
of the Fourteenth Amendment to enforce the Amendment’s other provisions (i.e.,
due process requirement). College Savings Bank v. Florida Prepaid Postsecondary
Ed. Expense Bd., 527 U.S. 666 (1999).

13
Therefore, 11th Amendment immunity does not bar Plaintiff/Appellant’s suit
against State Defendants for violations of 42 U.S.C. §1983 - the due process
guarantees of the 14th Amendment.
Therefore, the State Defendants’ motion to dismiss was granted in error.
11th AMENDMENT IMMUNITY IS NOT AVAILABLE TO STATE
DEFENDANTS HERE AS STATE DEFENDANTS VIOLATED
PLAINTIFF/APPELLANT’S FEDERAL RIGHTS CREATED BY TITLE IV-D
OF THE SOCIAL SECURITY ACT AND ARE, THEREFORE. SUBJECT TO
THE ENFORCEMENT PROVISIONS OF §5 OF THE 14th AMENDMENT.
Plaintiff/Appellant also brings causes of action against State Defendants for
violations of federal rights created by Title IV-D of the Social Security Act and relies
upon the enforcement provisions given to Congress under §5 of the 14th Amendment
to redress violations of these federal rights.
The Supreme Court has stated that a violation of a federal right is necessary
for a 42 U.S.C. §1983 claim. Gonzaga University v. Doe, 536 U.S. 273, 283 (2002).
Additionally, the Supreme Court has held that a plaintiff “must assert the
violation of a federal right, not merely a violation of federal law” to bring an action
against a state under §1983. Blessing v. Freestone, 520 U.S. 329, 340 (1997).
The Supreme Court has held that a statute creates a federal right if (i)
Congress intended that the provision in question benefit the plaintiff, (ii) the right
assertedly protected by the statute is not so ‘vague and amorphous’ that its
enforcement would strain judicial competence, and (iii) the statute in question
unambiguously imposes a binding obligation on the States. Id. at 340-41.

14
In Blessing, the Supreme Court used these factors to determine that Title IVD, as an undifferentiated whole, does not give rise to individual federal rights.
Id. at 342-45.
However, the Supreme Court also stated that it did not “foreclose the
possibility that some provisions of Title IV-D give rise to individual federal rights.”
Id. at 345-46.
The Court went on to hold that a plaintiff, in order to allege that a specific
provision of Title IV-D creates a particular individual federal right must identify,
with particularity, the rights claimed. Blessing, 520 U.S. at 342.
PLAINTIFF HAS A PRIVATE RIGHT OF ACTION UNDER TITLE IV-D OF
THE SOCIAL SECURITY ACT AS PLAINTIFF HAS “SPECIFIC” AND
“WELL DEFINED” CLAIMS WHICH CREATE INDIVIDUAL FEDERAL
RIGHTS AS REQUIRED BY THE UNITED STATES SUPREME COURT.
In Blessing v. Freestone, the United States Supreme Court granted certiorari
to resolve disagreement among the Courts of Appeals as to whether individuals
have private rights of action under 42 U.S.C. §1983 for violations of Title IV-D of
the Social Security Act. Blessing v. Freestone, 520 U.S. 329 (1997).
Firstly, the Supreme Court looked at whether Congress specifically foreclosed
a remedy for violation of Title IV-D of the Social Security Act under 42 U.S.C.
§1983. Id. at 330, citing Smith v. Robinson, 468 U. S. 992, 1005 (1984).
In determining this preliminary issue, the Supreme Court looked at whether
Congress had specifically foreclosed a remedy for violation of Title IV-D of the Social
Security Act under 42 U.S.C. §1983 either by (i) expressly forbidding recourse to 42

15
U.S.C. §1983 in the statute itself, or by (ii) impliedly creating a comprehensive
enforcement scheme that was incompatible with individual enforcement under 42
U.S.C. §1983. Ibid, citing Livadas v. Bradshaw, 512 U. S. 107, 133 (1994).
The Supreme Court held that 42 U.S.C. §1983 did not foreclose an individual
remedy for violation of Title IV-D of the Social Security Act either expressly,
because Title IV-D itself does not expressly foreclose this remedy, or impliedly as,
the Supreme Court held, the enforcement scheme of Title IV-D was compatible with
individual enforcement and “not comprehensive enough to close the door on [42
U.S.C.] §1983 liability.” Id. at 331.
Ultimately in Blessing, the Supreme Court held the original plaintiffs failed
to establish that Title IV-D of the Social Security Act gave plaintiffs individual
rights of action under 42. U.S.C. §1983 only because the “substantial compliance”
relief they sought painted “with too broad a brush” and failed to identify specific
and well-defined individual rights.
However, the Supreme Court remanded the case back to the District Court
for further inquiry into whether Title IV-D did create individual rights of action in
the following language:
Only by manageably breaking down the complaint into specific allegations
can the District Court proceed to determine whether any specific claim
asserts an individual federal right. Id. at 341-346.
In prior cases, the Supreme Court has been able to determine whether or not
a statute created federal, individual rights, which are subject to remedy under 42

16
U.S.C. §1983 because the plaintiffs articulated, and lower courts evaluated,
specific and well-defined claims. Wright v. Roanoke Redevelopment and Housing
Authority, 479 U. S. 418, 430. In Blessing, the Supreme Court held the following:

We do not foreclose the possibility that some provisions of Title IV -D give
rise to individual rights. The lower court did not separate out the particular
rights it believed arise from the statutory scheme, and we think the
complaint is less than clear in this regard.
In any event, it is not at all apparent that respondents sought any relief more
specific than a declaration that their "rights" [in general] were being violated
and an injunction forcing Arizona's child support agency to "substantially
comply" with all of the provisions of Title IV-D.
We think that this defect is best addressed by sending the case back for the
District Court to construe the complaint in the first instance, in order to
determine exactly what rights, considered in their most concrete, specific
form, respondents are asserting [and] only by manageably breaking down the
complaint into specific allegations can the District Court proceed to
determine whether any specific claim asserts an individual federal right.
Blessing v. Freestone, 520 U.S. 345-347 (1997).
Ultimately, the Supreme Court held that “[it] leave[s] open the possibility
that Title IV -D may give rise to some individually enforceable rights provided a
plaintiff can articulate specific and well-defined individual rights under
Title IV-D of the Social Security Act. Ibid.

Here, Plaintiff/Appellant claims specific and well defined individual rights
under Title IV-D of the Social Security Act.

Specifically, Plaintiff/Appellant claims the specific and well defined right to
(i) promote the safety and well being of his children and his family, (ii) the right to
increase the strength and stability of his family, (iii) right to increase the

17
confidence and competence in his parenting abilities, and (iv) the right to afford his
children a safe, stable, and supportive family environment, while strengthening his
parental relationships created under of 42 U.S.C. §629a (a)(2)(b).
Additionally, Plaintiff/Appellant claims the specific and well defined right to
all due process required under State law, including notice and a reasonable
opportunity to contest the accuracy of derogatory credit information, prior to
reporting such information, regarding Plaintiff/Appellant’s credit history created
under 42 U.S.C. §666(a)(7)(B).
Lastly, Plaintiff/Appellant claims the specific and well defined rights to have
the State Defendants review his child support orders upon request and review his
child support orders every three years without request created under violations of
42 U.S.C. §666(a)(10).
The Supreme Court has long since recognized that plaintiffs may use §1983
to enforce not only constitutional rights, but also those rights defined by federal
statutes. Because federal regulations have the force of law, they likewise may
create enforceable rights. Maine v. Thiboutot, 448 U.S. 1, 6-8, 100 S.Ct. 2502, 250506 (1980).
Here, Plaintiff/Appellant claims specific, well defined, individual, and
enforceable rights created under Title IV-D of the Social Security Act as shown
above. As such, 11th Amendment immunity is not available to State Defendants for

18
Plaintiff/Appellant’s actions brought under §5 of the 14th Amendment (i.e., 42
U.S.C. §1983) for violation of these Title IV-D rights.
Therefore, the State Defendants’ motion to dismiss was granted in error.
STATE DEFENDANTS HAVE CONSENTED TO SUIT, THEREBY
WAIVING ELEVENTH AMENDMENT IMMUNITY BY VOLUNTARILY
PARTICIPATING IN AND, RECEIVING FEDERAL INCENTIVE FUNDS
UNDER. TITLE IV-D OF THE SOCIAL SECURITY ACT.
The United States Supreme Court has long since held that when a State
leaves the sphere that is exclusively its own and enters into activities subject to
Congressional regulation, it subjects itself to that regulation as fully as if it were a
private person or corporation. Parden v. Terminal R. Co., 377 U.S. 184 (1964) citing
South Carolina v. United States, 199 U. S. 437, 199 U. S. 463.

Furthermore, the Supreme Court, in Parden, reaffirmed its position that a
State’s immunity may, of course, be waived and the State's freedom from suit does
not protect it from a suit to which it has consented. Clark v. Barnard, 108 U. S.
436, 108 U. S. 447; Gunter v. Atlantic Coast Line R. Co.,200 U. S. 273, 200 U. S. 284;
Petty v. Tennessee-Missouri Bridge Comm'n., 359 U. S. 275.

In Pardon, the Supreme Court held that a State's consent to suit arises from
an act, not wholly within its own sphere of authority, but within a sphere subject to
the Constitutional power of the Federal Government and ultimately concluded that
“States, by venturing into the Congressional realm, "assume the conditions that
Congress under the Constitution attached." Petty v. Tennessee-Missouri Bridge
Comm'n, 359 U. S. 281-282.

19
Here, Congress enacted Title IV-D of the Social Security Act pursuant to its
Constitutionally authorized “spending” power.
Under Article I, Section 8, Clause 1 of the Constitution, Congress is granted
the power to lay and collect taxes in order "to pay the Debts and provide for the
common Defense and General Welfare of the United States."
As required by United States v. Butler, 297 U.S. 1 (1936), Congress must
exercise its power to tax and spend for the "general welfare."
Through the use of its spending power, Congress is able to place a
requirement on states that compliance with specified conditions must take place
before the state will be considered to meet the qualification requirement for federal
funds.
Under a test provided in South Dakota v. Dole, 483 U.S. 203 (1987), for
Congress to place a condition on receipt of federal funds by a state, the spending has
to serve the general welfare, the condition placed on the state must be
unambiguous, the condition has to relate to the particular federal program,
unconstitutional action cannot be a contingency of receipt of the funds, and the
amount in question cannot be so great that it can be considered coercive to the
state's acceptance of the condition.
Here, the State of California Department of Child Support Services was
created by California Family Code §17303 which states the following:

20
Title IV-D of the Federal Social Security Act... requires that there be a single
agency for child support enforcement... [and] the state would benefit by
centralizing its obligation to hold counties responsible for collecting support..
and ... oversight would be best accomplished by direct management by the
state.
Additionally, California Family Code §17208 (b) also states the following:
The department [of child support services] shall maximize the use of
federal funds available for the costs of administering a child support
services department, and to the maximum extent feasible, obtain
funds from federal financial incentives for the efficient collection
of child support, to defray the remaining costs of administration of the
department consistent with effective and efficient support
enforcement.
As shown from California Family Code §17303 and §17208 (b), State
Defendants intentionally and specifically formed the Department of Child Support
Services for the purposes of (i) complying with Title IV-D of the Federal Social
Security Act in order to (ii) maximize the use of federal funds available and, to
the maximum extent feasible, obtain funds from federal financial incentives
through participation in Title IV-D of the Federal Social Security Act.
As a result, State Defendants have “ventured into the Congressional realm”
and “assumed the conditions that Congress, under the Constitution, attached” to
participation in Title IV-D of the Federal Social Security Act.
In so doing, State Defendants have left “the sphere that is exclusively its
own” and entered into activities subject to Congressional regulation, thereby
subjecting itself to Title IV-D of the Federal Social Security Act “as fully as if it were
a private person or corporation.”

21
Therefore, Defendant has consented to suit under Title IV-D of the Social
Security Act and has thereby waived its Eleventh Amendment Immunity.
Consequently, the State Defendants’ motion to dismiss was granted in
error.
STATE DEFENDANTS HAVE WAIVED ELEVENTH AMENDMENT
IMMUNITY BY VOLUNTARILY INVOKING THE JURISDICTION OF THE
FEDERAL DISTRICT COURTS IN TITLE IV-D ACTIONS.
The Supreme Court has held that a waiver of 11th Amendment immunity
will generally exist where the State either voluntarily invokes jurisdiction or makes
a clear declaration that it intends to submit itself to the jurisdiction of the federal
courts.” Coll. Sav. Bank v. Fla. Prepaid Postsecondary Educ. Expense Bd., 527 U.S.
666, 670, 119 S.Ct. 2219, 144 L.Ed.2d 605 (1999). Id. at 675-76, 119 S.Ct. 2219.

Additionally, the Court has held that immunity is a privilege which may be
waived, and hence, where a state voluntarily becomes a party to a cause, and
submits its rights for judicial determination, it will be bound thereby, and cannot
escape the result of its own voluntary act by invoking the prohibitions of the
Eleventh Amendment. Clark v. Barnard, 108 U. S. 436, 108 U. S. 447. Gunter v.
Atlantic Coast Line R. Co., 200 U.S. 273 (1906).
Here, Congress specifically reserved jurisdiction in the federal courts for
causes of action brought under Title IV-D of the Social Security Act in the following
language:
The district courts of the United States shall have jurisdiction, without
regard to any amount in controversy, to hear and determine any civil action
certified by the Secretary of Health and Human Services under

22
section 452(a)(8) of this Act. A civil action under this section may he brought
in any judicial district in which the claim arose, the plaintiff resides, or the
defendant resides. 42 U.S.C. §660.
Additionally, State Defendants have subjected themselves to federal
jurisdiction for Title IV-D cases in the following language as the Supreme Court has
long recognized that a suit arises under the law that creates the cause of action.
American Well Works Co. v. Layne & Bowler Co., 241 U. S. 257, 260 (1916):
In any action brought for modification or revocation of an order that is being
enforced under Title IV-D of the Social Security Act (42 U.S.C. Sec. 651 et
seq.), the effective date of the modification or revocation shall be as
prescribed by federal law ( 42 U.S.C. Sec. 666(a)(9)), or any subsequent
date. California Family Code §17400 (c).

Here, State Defendants have substituted themselves as payee for the
underlying child support liability owed by PlaintiffAppellant to the custodial
parent. Additionally, State Defendants have invoked the jurisdiction of the federal
courts by enforcing the child support obligations created by Title IV-D of the Social
Security Act.
Moreover, the State Defendants have a vested, pecuniary interest in
enforcing child support orders created by Title IV-D of the Social Security Act.
Specifically, the State Defendants are incented to collect as much as they can from
non-custodial parents via the incentive payment structure of Title IV-D. In short,
the more the State Defendants collect, the more they receive in incentive payments
from the federal government.
Plaintiff/Appellant’s suit arises under the law that creates it (i.e., Title IV-D)
and the State Defendants, by substituting themselves as payee in order to enforce a

23
child support obligation created by Title IV-D have voluntarily become a party to a
cause, have submitted its rights for judicial determination and, being bound
thereby, cannot escape the result of its own voluntary act by invoking the
prohibitions of the Eleventh Amendment. Therefore, the State Defendants’ motion
to dismiss was granted in error.

PLAINTIFF/APPELLANT COMPLIED WITH RULE 8 OF THE
FEDERAL RULES OF CIVIL PROCEDURE
The lower district court granted the County Defendants’ motion to dismiss
under Federal Rule of Civil Procedure § 12(b)(6) solely on the grounds that
Plaintiff/Appellant failed to meet the pleading requirements of Federal .Rule of Civil
Procedure §8. (Docket 30, Page 10, beginning with Line 1).
42 U.S.C. §1983 CLAIMS AGAINST COUNTY DEFENDANTS
The lower district court held that Plaintiff/Appellant failed to “state a claim
upon which relief could be granted” with respect to Plaintiff/Appellant’s 42 U.S.C
§1983 claims against County Defendants in the following language (Docket No. 30,
Page 11, Lines 15 and 16):
the suspension of Plaintiffs licenses were implemented by the State of
California — not by the County Defendants and therefore Plaintiff s due
process claim against the County Defendants fail.
However, there has been no evidentiary hearing of any kind
whatsoever at this stage in the proceedings. In other words, the lower district
court completely erred in attributing the acts of license suspensions to the State
Defendants and not the County Defendants without having held any evidentiary
hearing whatsoever.

24
As such, it is entirely inappropriate for the lower district court to make an
evidentiary finding at this stage in the proceedings as yet, there have been no
evidentiary hearings to date.
Additionally, the lower district court held that Plaintiff/Appellant’s 42 U.S.C.
§1983 claims fail in the following language (Docket No. 30, Page 12, beginning with
Line 8):
Moreover, to the extent Plaintiff is alleging he has not had notice and an
opportunity to be heard regarding the withholding of incorrect amounts of
money for his support obligations, there are established procedures that
provide sufficient post-deprivation remedies.
A gain, at this point in the proceedings in the lower district court, there have
been no evidentiary hearing of any kind whatsoever. Therefore, it is entirely
inappropriate for the lower district court to hold that “post deprivation remedies
were sufficient” at this stage in the proceedings as Plaintiff/Appellant has had no
opportunity to present any evidence, whatsoever, to the contrary.
The lower district court presented its own version of the standard of review in
determining whether Plaintiff/Appellants claims met the pleading requirements of
F.R.C.P §8 in the following language (Docket No. 30, Page 7, Lines 6-12):
In determining whether a complaint fails to state a claim for screening
purposes, the Court applies the same pleading standard from Rule 8 of the
Federal Rules of Civil Procedure (“Rule 8”) as it would when evaluating a
motion to dismiss under Federal Rule of Civil Procedure 12(b)(6). See
Watison v. Carter, 668 F.3d 1108, 1112 (9th Cir. 2012). Under Rule 8(a), a
complaint must contain a “short and plain statement of the claim showing
that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2).

25
However, it is not known what the lower district court has meant by
“screening purposes” as there is no requirement in F.R.C.P §8 that the court
“screen” Plaintiff/Appellant’s claims. All that is required under F.R.C.P §8 is a
short and clear statement sufficient to provide defendants notice with respect to
what claims they are being charged with so defendants may adequately answer the
allegations claimed.
Here, the lower district court has created its own, additional level of scrutiny,
and appears to have championed County Defendants’ cause by taking upon itself
the duty of “screening” Plaintiff/Appellant’s claims.
This was done in error and therefore, this Court should reverse the 9th
Circuit’s affirming of the lower district court’s judgment dismissing
Plaintiff?Appellant’s 42 U.S.C. §1983 claims against County Defendants.
CIVIL RIGHTS CLAIMS UNDER 42 U.S.C. S 2000d AGAINST COUNTY
DEFENDANTS.
The lower district court held that Plaintiff/Appellant’s Civil Rights Claims
under 42 U.S.C. §2000d fail because “ Plaintiff fails to allege any facts showing the
denial of benefits and discrimination was based on Plaintiffs race.” (Docket No. 30,
Page 13, Lines 12-21).
However, the standard of review for Rule 8 factual pleadings is to be liberally
construed as also noted by the lower disctrict court in the following language
(Docket No. 30, Page 7, beginning at Line 25 through Page 8, beginning at Line 9):

26
A claim is facially plausible when it “allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged.” The
complaint “must contain sufficient allegations of underlying facts to give fair
notice and to enable opposing party to defend itself effectively.” Starr v. Baca,
652 F.3d 1202, 1216 (9th Cir. 2011). “A document filed pro se is ‘to be
liberally construed,’ and a ‘pro se complaint, however inartfully pleaded,
must be held to less stringent standards than formal pleadings drafted by
lawyers.’” Woods v. Carey, 525 F.3d 886, 889-90 (9th Cir. 2008). However,
liberal construction should only be afforded to “a plaintiffs factual
allegations,” Neitzke v. Williams, 490 U.S. 319, 330 n.9, 109 S. Ct. 1827, 104
L. Ed. 2d 339 (1989).

However, Plaintiff/Appellant clearly provides factual allegations “sufficient...
to give fair notice and to enable opposing party to defend itself effectively” with
respect to Plaintiff/Appellant’s civil rights claims under 42 U.S.C. §2000d. (See the
following Section of the original complaint):

(i)

CLAIMS AGAINST DEFENDANT: COUNTY OF ORANGE. (Dkt.
1-1, page 122, line 2 through page 123, line 3);

(ii)

CLAIMS AGAINST DEFENDANT: DEPARTMENT OF CHILD
SUPPORT SERVICES COUNTY OF ORANGE. (Dkt 1-1, page 142,
line 3 through page 144, line 3);

(iii)

CLAIMS AGAINST DFEENDANT: STEVEN ELDRED IN HIS
OFFICIAL CAPACITY AS DIRECTOR OF THE DEPARTMENT
OF CHILD SUPPORT SERVICES COUNTY OF ORANGE. (Dkt 11, page 164, line 6 through page 165, line 8).

The lower district court correctly observed that “a document filed pro se is ‘to
be liberally construed,’ and a ‘pro se complaint, however inartfully pleaded, must be
held to less stringent standards and... liberal construction should be afforded to “a
plaintiffs factual allegations.” (Docket No. 30, Page 8, Lines 3-7).

27

However, the lower district court clearly erred in the application thereof to
Plaintiff/Appellant’s 42 U.S.C. §2000d claims against County Defendants.
R.I.CO. CLAIMS AGAINST COUNTY DEFENDANTS.
The lower district court has also held that Plaintiff/Appellant has
insufficiently plead facts in support of the alleged predicate offense of mail fraud for
Plaintiff/Appellant’s R.I.C.O. claims. (Docket No. 30, Page 15, beginning with
Line 15).
However, Plaintiff/Appellant, incorporates by reference, the following
sections of the original complaint against County Defendants:
(i)

Docket No. 1, page 19, line 5 through line 25; and

(ii)

CLAIMS AGAINST DEFENDANT: COUNTY OF ORANGE. (Docket
No. 1-1, page 127, line 17 through page 130, line 21);

(iii)

CLAIMS AGAINST DEFENDANT: DEPARTMENT OF CHILD
SUPPORT SERVICES COUNTY OF ORANGE. (Docket No. 1-1, page
149, line 17 through page 151, line 21);

(iv)

CLAIMS AGAINST DFEENDANT: STEVEN ELDRED IN HIS
OFFICIAL CAPACITY AS DIRECTOR OF THE DEPARTMENT OF
CHILD SUPPORT SERVICES COUNTY OF ORANGE. (Docket 1-1,
page 170, line 23 through page 173, line 2).

As can be seen from the above, Plaintiff/Appellant clearly has plead facts
sufficient to support R.I.C.O claims against County Defendants. Therefore, this
Court should reverse the lower district court’s ruling accordingly.

28

CONCLUSION REGARDING COUNTY DEFENDANTS
In general, the lower district court held that Plaintiff/Appellant failed to comply
with F.R.C.P §8 with respect to all claims against all County Defendants.
However, a review of the following sections of the original complaint clearly shows
that Plaintiff/Appellant has provided sufficient factual allegations to provide
County Defendants with adequate notice to defend against these allegations in the
complaint.
As the Court will see from a review of these sections, Plaintiff/Appellant’s
complaint more than complies with the “fair notice” requirement of Rule 8 as it
contains a “short and plain statement” of each claim showing that
Palintiff/Appellant is “entitled to relief’ against each County Defendant.
Additionally, each allegation is simple, concise, and direct and provides the
defendants with ‘fair notice of what the plaintiff s claim is and the grounds upon
which it rests.’ Fed. R. Civ. P. 8(a), (d).
0)

CLAIMS AGAINST DEFENDANT: STATE OF CALIFORNIA.
(Pages 53 through 73, Paragraphs 262-376);

0i)

CLAIMS AGAINST DEFENDANT; STATE OF CALIFORNIA
DEPARTMENT OF CHILD SUPPORT SERVICES. (Pages 74-95,
Paragraphs 262-376);

(in)

CLAIMS AGAINST DEFENDANT: STATE DISBURSEMENT UNIT.
(Pages 95-116, Paragraphs 377-489);

29

Uy)

CLAIMS AGAINST DEFENDANT: COUNTY OF ORANGE. (Pages
116-137, Paragraphs 490-601);

(v)

CLAIMS AGAINST DEFENDANT: DEPARTMENT OF CHILD
SUPPORT SERVICES COUNTY OF ORANGE. (Pages 137-158,
Paragraphs 602-775);

Mi

CLAIMS AGAINST DFEENDANT: STEVEN ELDRED IN HIS
OFFICIAL CAPACITY AS DIRECTOR OF THE DEPARTMENT OF
CHILD SUPPORT SERVICES COUNTY OF ORANGE. (Pages 158179, Paragraphs 776-887);

Mi)

CLAIMS AGAINST DEFENDANT; STEVEN ELDRED AS AN
INDIVIDUAL. (Pages 180-200, Paragraphs 888-1001); and

Mli) CLAIMS AGAINST DEFENDANT(S): DOES 1 THROUGH 20.
(Pages 201-221, Paragraphs 1002-1113).
Here, this Court is asked to balance the competing requirements of Federal
Rules of Civil Procedure Rule 8 (“Rule 8”) and subsequent case law by the United
States Supreme Court as shown below.
On the one hand, Rule 8 demands a short and plain statement of the grounds
for the court's jurisdiction, and a short and plain statement of the claim showing
that the pleader is entitled to relief a demand for the relief sought, which may
include relief in the alternative or different types of relief. F.R.C.P Rule 8 (a)(l)-(3).

30

On the other hand, a plaintiffs obligation to provide the “grounds” of his
“entitle [ment] to relief’ requires more than labels and conclusions, and a
formulaic recitation of a cause of action’s elements will not do. Factual
allegations must be enough to raise a right to relief above the speculative level on
the assumption that all of the complaint’s allegations are true. Bell Atlantic
Corp. v. Twombly 550 U.S. 544.
Consequently, this Court is presented with the unique case of balancing the
countervailing proscriptions of Rule 8: Namely; (i) requiring a plaintiff to simply
state their case while also, (ii) requiring the same plaintiff to provide sufficient
facts to show grounds for their entitlement to relief, which requires more than
labels and conclusions.
In short, the current case asks this Court to weigh the competing mandates of
Rule 8 upon the following scale: Simplicity vs. Plausibility.
Here, there are thirteen (13) causes of action against six (6) named Defendants,
as well as, twenty (20) “Doe” Defendants. Therefore, any complaint filed
sufficient to satisfy the proscriptions of Rule 8, will, necessarily, result in a
minimum of three hundred and thirty eight (338) causes of action along with
facts sufficient to show grounds for relief
“which grounds are more than labels and conclusions.”
Therefore, any plaintiff, similarly situated, will necessarily need to (i) name
each defendant, individually, along with (ii) all of the causes of action alleged,

31
including (iii) the facts sufficient to support the allegations, and (iv) the
appropriate relief sought. The result will necessarily be a substantial amount of
paper and pages that are not only essential but... in fact... are mandated by
Rule 8.
Again, the requirements of Rule 8, itself, mandate the production of all of the
above. It would then, therefore, be absolutely incredulous to label the results of
the production thereof as mere “prolix” when one is mandated to complying with
the Federal Rule of Civil Procedures.
Therefore, Appellant urges this Court to reverse the 9th Circuit’s order affirming
the disctrict court’s judgment on the basis that (i) to hold an Appellant to a
simplistic Rule 8 standard of a mere showing of “they done me wrong,” while also,
(ii) requiring an Appellant to provide facts exceeding “labels and conclusions” and
then later ruling that “you said too much” and, therefore, have violated Rule 8,
would be an inequitable balancing of the equities created by the exact same statute.
SIMPLICITY
The first prong of the analysis, as discussed above, is simplicity. Here, the
original complaint contains headings numbered with Roman numerals such as
I., II, III, etc.
Therefore, a simple, cursory, review of the complaint should allow each
defendant to easily ascertain what they are being sued for and the facts alleged
to support the allegations in support thereof.

32
As can be seen from the original complaint itself2, the heading “VIII.
CLAIMS AGAINST THE STATE OF CALIFORNIA” directs the Defendant to
the relevant section in order to (i) understand the charges against them along
with sufficient facts to (ii) to raise a right to relief above the speculative level on
the assumption that all of the complaint’s allegations are true. Bell Atlantic
Corp. v. Twombly 550 U.S. 544.
This is exactly what the original complaint accomplishes: (i) to allow the
defendant to understand the charges, (ii) to provide the facts sufficient to
support the Plaintiffs allegations, and (iii) that (i) and (ii) are sufficient so
Defendant can file an answer and file a legitimate defense.
In short, the original complaint fully sets forth who is being sued, for what
relief, and on what theory, with enough detail to guide discovery. It can be read in
seconds and answered in minutes. McHenry v. Renne, 84 F.3d 1172, 1177 (9th Cir.
1996).

This use of “headings” continues for all defendants. Therefore, it should not be
very difficult for any defendant to ascertain what they are being sued for.
Therefore, the simplicity requirement of Rule 8 is met.

2 Page 53.

33

PLAUSIBILITY
Plausibility has never been challenged by anyone. Nowhere, in any
responsive pleading, anywhere, has any defendant challenged the factual
allegations contained in the original complaint.
In fact, the lower district court seemed to have had no problem
understanding the causes of action of this case based upon its recommendation and
order. See Dkt 30, Case 8:18-cv-00160-PSG-KK, page 3 through 4.
Apparently, in drafting its opinion, the lower district court had no trouble,
whatsoever, in determining defendants, causes of actions, and facts to support the '
allegations in drafting its opinion.
It seems, therefore, absolutely incredulous, that the lower district court, in,
when determining that the Appellant’s original complaint lacked plausibility, in
fact, was able to quote causes of action, in great detail — including which
defendants are “being sued for what” - based solely upon Appellant’s original
complaint - and then conclude, ultimately, that Appellant violated Rule 8 by failing
to state facts sufficient to show liability, (i.e., Plausibility).
Based upon the foregoing, the plausibility requirement has been met in the
instant case. In short, no one has ever repudiated the facts set forth in the original
complaint. Moreover, the foundation for which the lower district court has based its
ruling — to dismiss based upon lack of facts and law - is based entirely upon the
facts/law/causes of action/remedies contained in the original complaint.

34

CONCLUSION
For the foregoing reasons, the Court should grant the petition for a writ of
certiorari, reverse the court of appeals’ decision, and remand with instructions to
reverse the district court’s judgment granting Defendants’ motion to dismiss.

Respectfully submitted,

DANIEL KRISTOF LAK
Appellant, Pro Se
P.O. Box 321
San Juan Capistrano, CA 92693
(949) 299-8708
email: federalcourtcases32167@yahoo.com

